APPENDIX A

a

FILED
06/05/2020

IN THE SUPREME COURT OF TENNESSEE
AT JACKSON

Citric of tht

Aopillitt Court*

HEATHER P. HQGROBROOKS HARRIS v. JIMMIE L. SMITH
Circuit Court for Shelby County
No. CT-001046-16

No. W2019-00354-SC-R11-CV

ORDER
Upon consideration of the application for permission to appeal of Heather Patrice
Hogrobrooks Harris and the record before us, the application is denied.
PER CURIAM

I

■*-.

■

A

;

\

f: < . f. St-

*

Supreme Court - Western Division
Appellate Court Clerk’s Office - Jackson
Supreme Court Building
6 Hwy 45 Bypass
Jackson, TN 38301
(731)423-5840

Heather Patrice Hogrobrooks Harris
579 Byron Drive
Memphis TN 38109

Re: W2019-00394-SC-R11-CV - HEATHER P. HOGROBROOKS HARRIS v, JIMMIE L.
SMITH
Notice: Case Dispositional Decision - TRAP 11 De lied

Attached to this cover letter, please find the referen ;ed notice issued in the above case. If you
have any questions, please feel free to call our office at the number provided.

cc:

Heather Patrice Hogrobrooks Harris
Melanie M. Stewart
Judge Mary L. Wagner

Additional case information can be found at www.tncourts.gov

\

APPENDIX B

TABLE OF CONTENTS

Tables of Authority

ii

Application for Permission to Appeal

1

Questions Presented for Review

1

Facts Relevant to Question Presented for Review

2

Record Facts

3

Standard of Review

6

Reasons Supporting Review by the Supreme Court

6

Conclusion

7

Certificate of Service

10

Appendix 1

10

Appendix 2

10

Appendix 3

10

I

TABLE OF AUTHORITIES

CASES:

PAGE

Caperton v. A.T. Massey Coal Co., 556 U.S. 868 (2009)
Rippo V Baker, 580 U.S.__ (2017) per curiam
United States v. Throckmorton, 98 U.S. 61 (1878)
Bean v. Bailey, No. E 2007-02540-sc-510-CV (Tenn. March 26,2009)
Branch v. Warren, 527 S.W. 2d 89 (Tenn. 1975)
Byrd v. Hall, 847 S.W. 2d 208 (Tenn.1993)
Chambers v. Nasco, Inc., 501 U.S. 32,44 (1991)
Gardiner v. Word, 731 S.W. 2d 889 ( Tenn. 1987)
Runyon v. Runyon, W2013-02651-COA-T10B-CV( Tn. Ct. App., March 31,2014)
Whitaker v. Whirlpool Corp., 32 S.W. 3d 222 (Tenn. Ct. App.,2000)
CONSTITUTIONS:
Amendment XIV, Section 1, United States Constitution
Article 1, Section 8 of the Tennessee Constitution
Article 1, Section 17 of the Tennessee Constitution
STATUTES:
U.S. Code 11 U.S.C. 554(c)
Tenn. Code 20-7-101
Tenn.. Code 55-9-201
Tenn. Code 55-9-203

il

.•

RULE:
Tenn. Rule of Civil Procedure 6.01
Tenn. Rule of Civil Procedure 6.04
Tenn. Rule of Civil Procedure 6.05
Tenn. Rule of Civil Procedure 7.02
Tenn. Rule of Civil Procedure 8.05
Tenn. Rule of Civil Procedure 8.06
Tenn. Rule of Civil Procedure 11.2 (1X2)(3X4)
Tenn. Rule of Civil Procedure 15.01
Tenn. Rule of Civil Procedure 15.02
Tenn. Rule of Civil Procedure 41.02
Tenn. Rule of Civil Procedure 56.03
Tenn. Supreme Court RulelO, Caron 1, Rule 1.2
Tenn. Supreme Court Rule 10, Canon 2, Rule 2.2
Tenn. Supreme Court Rule 10, Canon 2, Rule 2.3
Tenn. Supreme Court Rule 10, Canon 2, Rule 2.6
Tenn. Supreme Court Rule 10, Canon 3, Rule 3.6
Tenn. Rule of Evidence 408

Hi

APPLICATION FOR PERMISSION TO APPEAL
Pursuant to Rule 11 of the Tennessee Rules of Appellate Procedure, Petitioner
respectfully make application to appeal to the Tennessee Supreme Court from the judgments of
the Tennessee Court of Appeals at Jackson, filed January 13,2020 denying rehearing.
The panel opinion simply mocks the Petitior er as ridiculous because the trial judge
refused to recuse after not hearing from petitioner but ignores the blatant lie told by her as
reason for not hearing from the petitioner.
v The opinion completely disregards application of the proper legal standard to the facts of
the case, from substantive adverse ruling at a heariig improperly noticed; denying amendment
of die complaint; Mure of the trial judge to recuse after her partiality was demonstrated; and
dismissing petitioner's matter with prejudice.

QUESTIONS PRESENTED FOR REVIEW
I. Whether a trial judge whose reasons for drnying recusal are not only, not supported by
the record or docket entry, but are conclusively sho\ra to be untrue by a federal court order, and
who was not forthright state judicial questionnaire (about the racist history of an organization she
belongs to) rulings should stand simply because she is white .politically connected, and has
worked at the Tennessee Court of Appeals in Jackson* does she violate this black litigant's rights
to due process and equal protection of the law if any of her rulings stand.
U. Whether the trial judge violated Cannons ofjudicial conduct where she refused to
hear from petitioner thus invoking rule 2.6 denying petitioner the right to be heard; made rulings
that were not supported by evidence and oppressively ended appellant’s case violating rule 2.2;
injected the issue of bias and prejudice by not hearing from petitioner and petitioner learning

Application for Permission to Appeal 1

that she was a member of a group with a long histdfrp of discrimination in violation of Canon 2,
rule 1.2 and canon 3, rule 3.6.
III. Whether the Appellant states a good cau te for seeking a continuance and thus failing
to attend court (with notice of inability to attend) where her car did not have working windshield
wipers, horn and heater where weather conditions were rainy and cold and she had never before
sought a continuance yet continuance had been take a by the Court and respondent and Tennessee
Codes Tenn. Code 55-9-201,203 makes it a Class C! Misdemeanor to drive a vehicle without
working wipers and horn.

IV. Whether appellant’s should have been allowed to amend her complaint pursuant to
either Tenn. Code 20-7-101, rule 15.02 where respondent’s answers to the complaint violated
rule 11.02 (1),(2),(3) & (4), Tenn. Code 20-7-101 aad Rule 8.06 especially where respondent
had appeared in court and personally accepted liability two months before counsel filed her
answer affirmatively denying liability and sought unwarranted continuances only for the purpose
of attempting to undermine appellant’s rights to relief with the bankruptcy trustee.

FACTS RELEVANT TO QUESTION PRESE]

D FOR REWEEW

1. Petitioner’s bankruptcy case, Case No.: 17-20334 was dismissed by U.S. Bankruptcy
Court Judge, Davis S. Kennedy on September 25,2017.
2. Petitioner at a hearing on February 18,2018, the trial judge prevented her from
speaking in response to remarks about the case mad<: by the respondent.

Application for Permission to Appeal 2

3. On March IS, 2018 the petitioner filed afiotion to recuse the trial judge because she
refused to allow petitioner to be heard and petitione • discovered the trial judge was a member of
an organization with a history if racism against blac cs. (Vol. 1, P 73-75).
4. The trial judge on August 16,2018 filed tier Order on Recusal. (Vol. 1, P 78) In the
trial judge's order refusing to recuse she claimed he: reason for not hearing from the petitioner
was because of petitioner’s open bankruptcy case. The petitioner’s bankruptcy case was
discharged on September 25,2017.
'. 5. The trial court record shows no docket em ry granting a continuance on February 18,
2018, no motion for continuance on February 18,2( 18 or order entered on February 18,2018
continuing the matter.
6. The trial judge's claim of continuance lx cause of petitioner’s bankruptcy case is pure
fabrication. The respondent had before sought a continuance on the basis of petitioner’s
..

bankruptcy and placed into the record evidence sho1 ving the matter not then closed however
nothing in the record on, before or after the trial judge refused to hear from the petitioner.
7. The claims of the trial judge that the petitioner failed to properly respond to
respondent’s discovery request is not supported in the record as well as all other factual rulings
rendered against the petitioner have no support in the records.
8. Tennessee motor vehicle operation Code requires vehicles to have working windshield
wipers and horn and such failure is a Class C Misdejneanor.
RECORD FACTS
9. The automobile accident that form the b* sis of appellants complaint occurred January
16,2016. On March 11,2016 Petitioner filed her oiiginal complaint at law and request for jury
trial (vol.l,P.l).

Application for Permiss ion to Appeal 3

10. The respondent’s answer was filed Apfl 21,2016. (Vol.l, P.S).
11. In that answer at paragraph 14, responde nt “affirmatively alleges" that the appellant
was the sole proximate cause of the accident( Vol.l, P.6).
12. City court records show that the responc ent appeared in court to answer and paid
ticket and cost. (Vol. 1, P. 141) (Vol. 1, Page 142).
13. Petitioner received notice of an order entered September 20, 2018 resetting a trial
date to January 22, 2019 (Vol.l, P 82-83) note that this setting date( with the exception of the
January 2017) and all others were ex parte without participation by the appellant or an averment
that the appellant had agreed or averment that the a; pellant refused to cooperate.
14. Petitioner secured the a certification from the City Court Clerk’s Office ( Vol. 1, P.
141) on October 11, 2018 which represented that respondent had appeared in court to answer
for the ticket U240536.
15. Petitioner noticed that the certification did not show the date respondent appeared in
court so the returned to the City Clerk’s Office (Vol. 1, Page 142) receiving a certification that
showed the court appearance was to have been January 26,2016, additionally the accident report
(Vol. 1, Page 134) shows that the certifications are For the ticket # U240536 issued as a result of
the accident. Petitioner contacted respondent about the lack of truth in the answer filed and
stated that she may file a Rule 11.1 petition, however, Petitioner on second thought felt such
would be a waste of time considering her reception by the trial judge as she had other more
pressing life events occurring deciding to just amend her complaint. (Vol. 1, P 125-131).
. By file date of December 19, 2018 respondent filed a motion for partial summary
judgment for appellant’s claims for diminution of value for the vehicle, negligent infliction of
emotional distress and her hospital bills (Vol.l, Pago 84-124). ( Vol. 3, P ) Note that respondent

Application for Permission to Appeal 4

had been ready to proceed in January, 2017 adtl the only change had been the petitioner’s
receiving the tact that respondent had appeared in court and accepted responsibility before the
complaint and answer was filed.
J

16. Petitioner filed her motion for continuance for 6 months ( Vol. 1, P 125-131) on
January 7, 2019 along with an amended complaint dating basically she needed time to deal with
lack of honesty discovered in respondent’s answer to the complaint and other pleadings and
demands on appellant in ongoing litigation over her home. Petitioner also therein apprised the
court of her problems with transportation as it was rainy and cold and appellant’s vehicle had no
heat or working windshield wipers. (Vol. 1, Page 125-126).
17. On Jan 11,2019 respondent filed a Molion to strike amended complaint and motions
in limine to prevent (1) testimony of settlement olfer sent to bankruptcy trustee (2) to exclude
traffic ticket (3) to prohibit mentioned of insurance (4) (152 tol59).
18 Petitioner on January 15, 2019 filed her response to respondent’s motions in limine
and other pending motions having received notice c f the filings by email dated January 14,2019
with a hearing date of January 18,2019. (Vol.2, P 160-167). She attached to that motion various
emails including the one showing appellant received notice of the January 18, 2019 hearing on
January 14,2019.
19. Although the petitioner did not have pioper notice of the January 18, 2019 hearing,
the trial judge altered orders granting the relief respondent requested on January 22, 2019
thereby gutting petitioner's case. (Vol. 2,168-172).
. 20. Petitioner filed a motion for reconsideration on January 30,2019. ( Vol. 2. 182-185).
21. Petitioner’s case was dismissed on February 11,2019.( Vol. 2,191-192).

Application for Permis' ion to Appeal 5

STANDARD OF REVIEW
This . Court reviews evidentiary decisions under an abuse of discretion standard. Biscan v.
Brown, 160 S.W.3d 462,468 (Tenn. 2005). A lowei court abuses its discretion by applying an
incorrect legal standard, or reaching a decision which is against logic or reasoning that causes an
injustice to the party complaining. Mercer v. Vanderbilt Univ., Inc., 134 S.W.3d 121,131
(Tenn. 2004).

REASONS SUPPORTING REVIEW BY THE SUPREME COURT
Petitioner did not received equal protection of the law or due process of the law. The
petitioner's judge was dishonest. This case was not decided based on the facts in the record.
Given the lack of sound legal reasoning and applica ion to the Petitioner's issues and facts, this
case was decided at the trial court level based solely on racial animus and at the appellate lever
based on class and association as the white trial judj ;e and white respondent’s attorney are clearly
shown by the record to be disingenuous if not more.
Tennessee Rule of Appellate Procedure 11(e) provides the well-settled factors this Court
considers when addressing this application: (1) the need to secure uniformity of decision; (2) the
need to secure settlement of important questions of aw; (3) the need to secure settlement of
questions of public interest; and (4) the need for the exercise of this Court's supervisory
authority. This case satisfies each factor.
(1) In this case the appellate panel deviated significantly from the established case law In
evaluating and analysing Appellant’s facts. (2) The important questions of law presented herein
are whether any litigant is bound by pleadings and rulings anchored in lies and
misrepresentations-is such constitutionally permissible. Too, the question is whether equal

Application for Permission to Appeal 6

protection of the law is the law irrespective of ra<& or status. (3) It is very much in the public
interest to know and have faith that those with roles of responsibility and duty in the legal system
are first and foremost honest people. It should not matter what ones personal beliefs and feelings
and this records clearly evidences dishonesty on the part of the trial judge and severe deviation
from the facts supporting the trial courts decision!. (4) If the courts job is to ensure the integrity
of the judicial system, the facts presented herein ca nnot be ignored however unpleasant or
politically tainted.

CONCLUSION

Petitioner centers her application to this coi irt on the recusal issue although none of her
Eleven Issues on appeal were analyzed. The charaster, honesty and integrity of a judge is crucial
tp our system. The rulings are so fantastical and draconian that she can only surmise that the
trial judge developed sever personal animosity that petitioner dared to have sought recusal after
the trial judge refused to her from her in her own matter. The prior decisions are simply grossly
and it is wrong and legally inconsistent to uphold ii based on petitioner’s failure to attend an
unfair trial setting. American may not like a resul t of a game but if it's been fairly played, we
respect it This result can in no way be respected and it should never be replicated because the
supervising guardians of our legal system chooses o look the other ways because the conduct of
its own is embarrassing.
Petitioner sought her refusal after being curdy silenced by the trial judge from
responding to Respondent’s counsel(a white woman whose honesty is should to be questionable
in the record’s pleadings and transcript). That act c aused petitioner to seek recusal and in the

Application for Permiiision to Appeal 7

process discovering additional facts about the triaPj udge that would not hear from a litigant.
From official State sites, discovering that she has; ipent time in each level of court in a short
time, was a member of the Daughters of the American Revolution a group which had a history of
racism for the majority of its existence. A well knc w history which the trial judge did not
disclose on her judicial questionnaire.
The trial judge then in responding to Petitio tier’s recusal motion chose to create a lie
about the state of petitioner’s bankruptcy case as th; reason it was not necessary to hear from the
petitioner. The trial judge then proceeded in short < >rder to make a number of adverse ruling to
petitioner’s case that were not supported by the fact s in the record and were simply abusive and
retaliatory.
As the United States Supreme Court recently said in Rippo v. Baker, 580 U.S._(2017)
per curiam
“Under our precedents, the Due Process Clause may sometimes demand recusal
even when a judge M ‘ha[s] no actual bias.’ ’ Aetna Life Ins. Co. v. Lavoie, 475
U. S. 813,825 (1986). Recusal is required when, objectively speaking, “the
probability of actual bias on the part of the j iidge or decisionmaker is too high to
be constitutionally tolerable.” Withrow v. Ltrkin, 421 U. S. 35,47 (1975); see
__ (2016) (slip op., at 6) (“The Court
Williams v. Pennsylvania, 579 U. S.
asks not whether a judge harbors an actual, Subjective bias, but instead whether,
as an objective matter, the average judge in: lis position is likely to be neutral, or
whether there is an unconstitutional potential for bias” (internal quotation marks
omitted)). Our decision in Bracy is not to th< s contrary: Although we explained
that the petitioner there had pointed to facts suggesting actual, subjective bias, we
did not hold that a litigant must show as a matter of course that a judge was
368 P. 3d, at 744—
“actually biased in [the litigant’s] case,” 132} Nev., at
much less that he must do so when, as here, lie does not allege a theory of
“camouflaging bias.” The Nevada Supreme 2ourt did not ask the question our
precedents require: whether, considering all the circumstances alleged, the risk of
bias was too high to be constitutionally tolerable. As a result, we grant the petition
for writ of certiorari and the motion for leavi: to proceed in forma pauperis, and
we vacate the judgment below and remand t le case for further proceedings not
inconsistent with this opinion.”

Application for Permisi >ion to Appeal 8

Objectively speaking, bias is shown when a rial judge fabricates a reason for not hearing
from a litigant. Further, from the Petitioner’s pers] >ective, one cannot ’objectively’ square the
record frets and controlling law with the trial judge’s rulings. Petitioner is in this position of
having to seek further review because the appellate ] janel was more concern with covering up the
clearly inappropriate and unconstitutionally depriving behavior of one of their own then doing
justice. It does not matter how much the judicial establishment wants to cover-up and
whitewash the facts of this record or the frets not ap pearing of record that should be for the trial
judge to have reach the decisions it did, Bottom-line, the trial judge refused to hear from
pehtionetin the first instance and then proffered lies) unsupported and externally contradicted) of
her reasons for not hearing from the petitioner.
The Panel did not in good frith analyzing the appellant’s frets contained in her eleven
(11) issues of error against the applicable law but im tead, mocked the Petitioner and ridiculed
her and her reasons for seeking a continuance and nc t appearing in the trial court. It rested its
decision on her non-appearance holding that her reas ons insufficient without stating why or
addressing the equal protection argument regarding < ienial of a continuance.

ibmi

►brooks Ham
P.
►79 Byron Drive
Memphis, Tennessee 38109
[eatherpatriceffibellsouth.net

ii

Application for Permlssi an to Appeal 9

\

CERTIFICATE OF SERVICE
I Heather Hogrobrooks Harris certify that I have placed in the U.S. Mail, postage prepaid a copy
of the Application for Permission to Appeal to:
Ms. Melanie M. Stewart
Heaton & Moore
44 North Second Street, Suite 1200
Memphis, Tennessee 38103
Done this 2nd day of March, 2020.

Heather'P.&S'grobrooks Harris

APPENDIX OF PRIOR OPINIONS A TO FEDERAL COURT ORDER
h Circuit Court of Appeals Opinion filed December 20,2019
2. Circuit Court of Appeals Opinion denying rehearing filed January 13,2020
3. United States Bankruptcy Court Order of Discharge dated September 25,2017.

Application for Permiss on to Appeal 10

APPEND XC

/

f

*3* '
■

%.

ri
i

IN THE COURTtHF APPEALS OF TENNESSEE
ATJACKSON
HEATHER P. HOGROBROOKS HARRIS v. JIMMIE L. SMITH
Shelby Coijpty Circuit Court
CT-001C 46-16
No. W2O19-0O39< 1-COA-R3-CV
Date Printed: 01/13/2020
...--------v

Notice/UN fete: 01/13/2020
•—' ■■r •

NOTICE - Order - Petition to Rehear Dedied
The Appellate Court Clerk's Office ha^ entered th<: above action.
If you wish to file an application for permission to appeal to the Tennessee Supreme Court
pursuant to Rule 11 of the Tennessee Rules of Apjtellate Procedure, you must file an original and
six copies with the Appellate Court Clerk. The application must be filed "within 60 days after the
denial of the petition or entry of the judgment on rehearing." NO EXTENSIONS WILL BE
GRANTED.

James M. Hivner
Clerk of the Appellate Courts

’i
5

\

4

FILED
01/13/2020

IN THE COURT OF APPEALS OF TENNESSEE
AT JACKSON
November 12,2019 Session

Owkorth*
Apptll«t> Court*

HEATHER P. HOGROBROOKS fi ARRIS v. JIMMIE L. SMITH
Appeal from the Circuit Court for Shelby County
No. CT-001046-16 Maiy L. Wagner, Judge
No. W2019-00394- COA-R3-CV

ORDER ON PETITION FOR REHEARING
The Appellant, Heather P. Hogrobrooks Harris, filed a Petition for Rehearing
pursuant to Rule 39 of the Tennessee Rules of Appellate Procedure. All matters raised in
the Petition were fully argued by the parties, considered by this Court, and sufficiently
addressed in our Opinion. Therefore, we find the Petition is not well taken, and it is
DENIED. Costs related to this Rule 39 Petition for Rehearing are taxed to the Appellant,
Heather P. Hogrobrooks Harris.

PER CURIAM

✓
- -\

S'

APPENDIX D

/<
f

IN THE COURT OF APPEA
ALS OF TENNESSEE v
AT JAC
CKS ON
HEATHER P. HOGROBROOKS HARRIS v. JIMMIE L. SMITH
Shelby County Circuit Court
CT-OOH 46-16
No. W2019-0039- i-COA-R3-CV
Date Printed: 12/30/2019

Notice/Ftt«dD»*ejl2/3«/2019

NOTICE - Petition - to Rehear
The Appellate Court Clerk's Office has entered the above action.

James M. Hivner
Clerk of the Appellate Courts

IN THE COURT OF APPEALS OF TENNESSEE
JACKSON
NO. W2019-00394- COA-R3-CV
HEATHER P. HOGROIIROOKS HARRIS
appelljlnt

V.
JIMMIE L. SMITH
APPELLEE

,*■>

APPEAL FROM THE S HELBY COUNTY
CIRCUIT COURT
CT-00104S-16
PETITION FOR REHEARING

Heather P. Hogrob rooks Harris
579 Byron! Irive
Memphis, Tenneisee 38109
901.494.1174

grounds for Rehearing

The opinion filed on December 10,2019 and received by the Appellant on December 24,
2019:
1. Incorrectly states the material facts set f irth by the record on the recusal issue;
2. misapprehends material facts of appellt nt’s failure to attend court; and
2. The opinion overlooks the Appellant’s constitutional claims.

FACTS SUPPORTING REHEARING
At page 78 of Volume of I of the record is tlie trial judge’s Order on recusal entered
August 16,2018. In her order on recusal she admits that she refused to hear from the appellant
at a hearing on February 19,2018. It then goes on 10 create a lie that is not supported in the
record and is contradicted by the records of the United States Bankruptcy Court. The records of
the bankruptcy court, In re Heather P. Hogrobrooks Harris, Case No.: 17-20334 shows that the
Appellant was discharged on September 25,2017.
In addition to the trial court’s lie about a per ding bankruptcy proceeding, there are no
request for a continuance filed for said request or order entered for said request.

Too the panel’s support for affirming and m saningfully considering appellant’s points of
error on the law or her constitutional equal protectic n claims was that the conditions of her
personal transportation and financial hardship were of no moment, however the conditions
affecting her vehicle created a hazard to her and the public if she driven her car to the hearing. A
vehicle without a working horn and windshield wip srs is a dangerous instrument.

ISSUES PRESENTED & ARGUEMENTS BYfrfflE APPELLANT THAT THE COURT
DID NOT MEANINGFULLY CONS PER OR CONSIDER AT ALL
I. WHETHER THE TRIAL JUDGE SHOULD HAVE RECUSED WHERE SHE
VIOLATED CANON 2, RULE 2.6 DENYING AP >ELLEANT THE RIGHT TO BE HEARD;
MADE RULINGS THAT WERE NOT SUPPORT] 2D BY EVIDENCE AND OPRESSIVELY
ENDED APPELLANT’S STATE CONSTITUTIONAL RIGHTS WHICH VIOLATED
CANON 2, RULE 2.2; INJECTED THE ISSUE OF BIAS AND PREJUDICE BY NOT
HEARING FROM APPELLANT BEFORE GRANTING APPELLEE’S REQUEST AND NOT
BEING CANDID IN HER ANSWERS TO A JUDICAL QUESTIONAR ABOUT HER
AFFILIATION WITH DISCRIMATORY ORGANIZATIONS THUS VIOLATING CANON 2,
RULE 1.2 AND CANON 3, RULE 3.6 AND BEAN V. BAILY, NO. E 2007-02-540-SC-510CV (TENN, MARCH 26,2009).
The appellant appeared before the trial judge on February 19,2018 whereat the court
refused to let the appellant be heard. The appellant taken aback by the court’s refusal to allow
her to respond to appellee’s presentation or otherwise be heard so appellant took to the internet
for what she could find out about the presiding judge. Appellant found three credible sources,
(1) a bio on the State’s website, (2) the case of Ron; ran v. Runyon, W2013-02651-COA-T10BCV ( Tenn, CtApp., March 31,2014, and (3) a judi ;ial application filed by the judge on the
County’s website.
It was the combination not being heard in a matter appellant brought to the court,
discovering that the judge was a member of a histor cally racially restrictive organization and
was not candid about it, along with the fact that the rial judge herself as lawyer obviously
understood the importance of a neutral and detachec magistrate. Appellant, conflicted by what it
portends that a woman of her age in the community she presides would seek such association as
she did with a organization that has a rich and infam ous racial past and appellant’s treatment by
■v

her did not her to preside in her case. Appellant’s n cusal motion filed March 15,2018 is at (
Vol. 1, P 73-75) of the record. Appellant in her reel sal motion did not mentioned he lack of
candor in her description of The Daughters of the A nerican Revolution and even tried to be
empathic in analogizing the pride of a relative’s sen ice in a military service to not come off so
course in the request for recusal. However the unquestionable bottom-line is that the trial judge
violated judicial Canon 2.6.
There too is no question that judicial Canon: 1.2 was repeatedly violated. The trial judge
granted relief requested to the appellee’s counsel thf t was not warranted under the facts and
because the appellant was obviously an indispensibl; party none of her orders reference the

appellant as to agreement with her orders. (1) wherf she granted the appellee’s counsel the first
continuance in the record the appellee's counsel attached showed that the bankruptcy trustee had
already abandon this trial as an asset back to the apjiellant (Vol. 1, P 16); (2) when the second
continuance by appellee's counsel was granted on the basis of appellant’s bankruptcy (it is
documented in the trial judge order on recusal RJP. 78) it had been discharged since August 25,
2017 (3) the ruling on appellant’s not being able to ] jresent evidence of hospital bills, the judge
did not require support and a reading of the transcri] >t support’s the argument that she did not
care if appellee’s counsel assertion supported the rel ief requested and granted in that February
18,2019 hearing (Vol. 3) and the lack of fairness ai id impartiality reverberates through all the
issues presented.
Canon 2.3 violations are most starkly contra! ited by the difference of consideration the
trial judge gave on the continuance issues. With record evidence and public evidence available to
her she grants appellee’s requested relied based on t lisrepresentations. Appellent has the denial
of a continuance before this appellate court as an issue where she sought continuance basis on
need to correct misrepresentations in appellee's pleadings and personal challenges.
Then there the rules 15.01,41.02, and 56.03 issues which deprived appellant substantive
state and federal constitutional rights where the trial court did not give an ounce of consideration
and the appellee's counsel proffer of support was “misleading” just to be polite about the
description.
Whatever the reason the trial judge had, the * dmitted facts are that the trial judge denied
appellant her constitutional right and had gone on to consciously ignore other legal principals
and rules aimed at die meritorious consideration of I itigants’ and assurance that constitutional
rights are protected like Rule 8.6 directive that pleadings being construed to do substantial
justice; Rule 15.1 allowing amendments; summary judgment requiring the moving party to
demonstrate that no material issue of fact exist for ei ample Bain v. Wells, 936 S.W. 2d 618
(Tenn. 1997) and Byrd v. Hall, 847 S.W. 2d 208( Tam. 1993); or in regard to Rule 41.02 where
the court caution the power to involuntarily dismiss a litigant’s cause of action “must be
exercised most sparingly and with great care” that die right of the respective parties to a hearing
shall not be denied or impaired Harris v. Baptist M (mortal Hospital, 574 S. W. 2d 730 ( Tenn.
1978); and then there is Article 1, Section 17.

The dereliction of duty of the duties impof sd in the canon provisions stated above are
unquestioned as they are admitted to or directly of gleamed from the record or transcripts found
in Volumes 3 and 4. Appellant is certain that somi: reader and decider of this brief will have
their own visceral reactions to this argument but I' vant them to balance that against the fact that
this appellant who lives on VA dependant spouse < ompensation and her husband’s social
security having to take it at 60 was inhumanely de< tit with when she sought her first continuance
during the time her life was so personally challeng id. and maybe the ultimate rulings by the trial
judge would not had changed but appellant would! lave been in a personally better position to
deal with them. Tod consider that the indifference ihown here is not likely a one off situation
along with the financial and educational demograp lies of the community in which the trial judge
sits and the cost of appeal and now the difficulty oi ‘ appeal since the notice can no longer be
lodged in the local trial court None of what this appellant presents promotes the confidence in
the judiciary consistent with Canon 1.2.

H.
WHETHER THE TRIAL COURT’S RULE 41.02 DISMISSAL OF
APPELLANTS COMPLAINT WITH PREJUDICII FOR FAILURE TO PROSECUTE WAS
ARBITRARY, CAPRICIOUS, ABUSIVE OF THI l USE OF DISCRETION AND VIOLATIVE
OF APPELLANT’S SUBSTANTIVE AND CONSTITUTIONAL RIGHTS WHERE HARRIS
V. BAPTIST MEMORIAL HOSPITAL, 574 S.W. 2D 730 (TENN. 1978) INSTRUCTS THAT
THE DISMISSAL WITH PREJUDICE POWER MUST BE EXERCISED MOST SPARINGLY
AND WITH GREAT CARE THAT THE RIGHT OF THE RESPECTIVE PARTIES TO A
HEARING SHALL NOT BE DENIED OR IMPAIRED.
HI.
WHETHER APPELLANT’S SHOULD HA VE BEEN ALLOWED TO AMEND HER
COMPLAINT AS TIMELY PURSUANT TO RULE 15.02 WHERE APPELLEE’S ANSWERS
TO THE COMPLAINT VIOLATED RULE 11.02 (1),(2),(3) & (4) ESPECIALLY WHERE
APPELLEE HAD APPEARED IN COURT AND PERSONALLY ACCEPTED LIABILITY
TWO MONTHS BEFORE COUNSEL FILED HER ANSWER AFFIRMATIVELY DENYING
LIABILITY AND SOUGHT UNWARRANTED C ONTINUANCES IN THE CASE ONLY
FOR THE PURPOSE TO UNDERMINE APPELL \NT’S RIGHTS PURSUANT TO ARTICLE
1, SECTION 17 OF THE TENNESSEE CONSTITUTION.
IV.
WHETHER THE TRIAL COURT ABUSE! D ITS DISCRETION IN NOT ALLOWING
THE APPELLANT TO AMEND HER COMPLAINT THUS DENYING HER DUE PROCESS
AND EQUAL PROTECTION OF THE LAW WHERE THE REQUESTED AMENDMENT
WAS TO ADD CERTIFFIED COURT RECORDS AND AFFIDAVITS THAT SPOKE TO
DISENGENOUS MOTIONS IN LIMINE FILED ON BEHALF OF APPELLEE AND TO
BETTER GROUND THE BASIS OF APPELLANT’S CAUSES OF ACTION THUS

IMPAIRING AND OBSTRUCTING APPELLANT’S ACTION FROM BEING RESOLVED
ON THE MERITS WHICH WAS INCONSISTAN r WITH HENDERSON V. BUSH BROS
CO., 868 S.W. 2d 236 (TENN, 1993).
V.WHETHER THE TRIAL COURT DENLU_ OF APPELLANT’S MOTION FOR
CONTINUANCE VIOLATED APPELLANT’S RJ jHT TO EQUAL PROTECTION AND
EQUAL APPLICATION OF THE LAW WHERE IIER REASONS FOR REQUEST WERE
NEED TO ADDRESS THE LACK OF CANDOR IN APPLEELL’S PLEADINGS THUS
CORRECT A UNTRUTHFUL RECORD MADE SO ON THE FILING OF APPELLEE’S
SUMMARY JUDGMENT MOTION AS WELL AS PERSONAL CONSIDERATIONS WHEN
THE SAME COURT HAD GRANTED APPELLEE UNILATERAL AND NEEDLESS
CONTINUANCES AND THE COURT ITSELF fLO) CONTINUED THE FIRST TRIAL
SETTING AND WHERE TENN CODE ALLOWS FOR CONTINUANCE AT ANY STAGE
OF THE PROCEEDINGS TENN CODE 20-7-101
VI. WHETHER THE TRIAL JUDGE ERRED WHEN SHE GRANTED SUMMARY
: JUDGEMENT RULE 56.3 TO THE APPELLEE F OLDING THAT APPELLANT NEEDED
EXPERT TESTIMONY TO PRESENT JURY TESITMONY ON NEGLIGENT INFLICTION
OF EMOTIONAL DISTRESS WHERE SUCH IS A QUESTION OF LAW AND NEITHER
T.C.A. 29-39-101, T.C.A. 29-39-102, T.C.A.29-39- .03, T.C.A. 29-39-104 SPECIFICES NO
SUCH REQUIREMENT AND COLEMAN V. HU14ANE SOCIETY OF MENPHIS AND
SHELBY COUNTY, NO. W2012-02687-COA-R-9 CV ( Ct App. Tenn., February 14,2014)
VII. WHETHER THE TRIAL JUDGE ERRED IN HOLDING APPELLANT WOULD
BE PREVENTED FROM TESTIFYING AND GR> lNTING RULE 56.3 SUMMARY
JUDGEMENT ABOUT HOSPITAL AND MEDICO. BILLS INCURRED AS A RESULT OF
THE ACCIDENT MADE THE BASIS OF THIS Ll lW SUIT ON THE CLAIM PURSUANT
TO RULE 56.03 THAT THE DEBT HAD BEEN D [SCHARGED IN BANKRUPTCY
WITHOUT REFERENCE TO THE RECORD PROVING OR SUPPORTING THE FACT AS ,
REQUIRED BY RULE 56.03
Vm. WHETHER THE APPELLANT WAS DENIED DUE PROCESS WERE
HEARING WITHOUT HER PARTICIPATION Ob IMPROPER NOTICE PURSUANT TO
RULE 6.04 WHEREAT SAID HEARING THE TOTALITY OF HER COMPLAINT WAS
GUTTED AND SUBSTANTIALLY FORCLOSED AND THE RESPONSE APPELLANT
WAS ABLE TO TIMELY PUT TOGETHER WAS NOT CONSIDERED .
IX. WHETHER THE APPELLEE’S COUNSEL ABUSED AND MISUSED THE
PROCESS WITH THE COURT’S ACQUIESCE BY UNILATERALLY REQUESTING AND
RECEIVING CONTINUANCE AND TRIAL SETTINGS WITHOUT APPELLANT’S INPUT
OF KNOWLEDGE AND BASED ON APPELLANT BANKRUPTCY FILING WHERE
APPELLANT’S BANKRUPTCY WAS FILED 01/12/17, DISCHARGED 09/25/2017 WITH
NO RETENTION OF ASSETS 11 U.S.C. 554(C) AND WHERE THE TRUSTEE DID
ACCEPT APPELLEE’S OFFER TO COMPROMISE

X. WHETHER TRIAL COURT ERRED IN HOLDING THAT APPELLANT
™ COULD
NOT PRESENT EVIDENCE OR TESTIMONY REG ARDING APPELLEE’S OFFER OF
$1,500.00 TO THE APPELLANT AND $2,500.00 TO THE BANKRUPTCY TRUSTEE IN
SETTLEMENT WHERE THE TESTIMONY WOUL D BE OFFERED NOT TO PROVE
LIABILITY OR VALIDITY BUT TO PROVE RACI4L BIAS AND UNWARRANTED
ATTEMPTS TO FORECLOSE APPELLANT’S RIG TT TO TRIAL AS ALLOWED BY RULE
408
XI
WHETHER THE TRIAL JUDGE SHOULD HAVE GRANTED APPELLEE’S
COUNSEL’S SUMMARY JUDGEMENT WERE ITE SUBMITTED STATEMENT OF
FACTS CONTAINS MOSTLY IRRELAVANT ASS 2RTIONS AND WHERE RELEVANT
WERE COMPLETELY MISLEADING OUTRIGHT OR MISLEADING TECHNIAL
HALFTRUTHS WHICH DID NOT SPECIFICALLY POINT TO RECORD SUPPORT AND
WAS NOT SUPPORTED BY AFFIDAVIT CONSISTENT WITH BYRD V. HALL, 847 S.W.
2D 208 (TENN 1993)
ARGUMENT FOB REHEARING
There is no question that the trial judge’s Order on Recusal contains lies made up to
justify not hearing from the Appellant. Tennessee’s ji idicial canons do not carve out exceptions
for when judges can refuse to hear from a litigant T1 at court recusal order as well as the panel
decision denies this Appellant equal protection of the law. The same for each issue raised by this
Appellant that the panel did not addressed.
After the trial court denied hearing from the Appellant and appellant discovered that the
trial judge was obviously a favorite daughter as she h id spent time in every level of court in this
jurisdiction »»H was chosen to be appointed jqdge of the court wherein she had sought that
judges recusal even against others without any questi jnable associations and others with more
and varied experience, Appellant knew this was going to be dicey. Appellant tried to as
discerningly as she could without further offending a i Appellant know this was in a kill the
messenger/victim situation. But, the law is not suppe sed to be a respecter of personage and the
truth is suppose to matter even when it is not apprecii ited.

Appellant felt on Christmas Eve what Draft Scott must have felt in 1858. Although this
Appellant has the benefit of the 13th and 14th Amendments, thus far she too has no rights that
the court respects. Appellant has been black long ei tough to know that she can’t say things that
cannot be proven by other sources. On the main issue of recusal, it is the records of a federal
court that shows the trial judge to be a liar as it was the records of City Clerk’s office that proved
the appellee’s counsel to be a liar. Their white, appellants black, I get it outside a court
proceeding but not inside a court proceeding at this level where biases are to left on the steps of
the courthouse.

Respectfully submitted

Heather P. Hogrobrooks Harris

CERTIFICATE OF SERVICE

I, Heather Hogrobrooks Harris certify that I have caused to be served on
Appellee Jimmie Smith by serving his counsel;

Mekanie M. Stewart
Heaton and Moore
44 N. 2nd St, #1200
Memphis, TN 38103
Postage prepaid, this 27th day of December, 2019.

Heather Hogrobrooks Harris

APPENDIX E

-r
^ C'

*•

IN THE COURT OF APR SALS OF TENNESSEE
ATJACKSON
November 12,2019 Session

HEATHER P. HOGROBROOKS HARRIS v. JIMMIE L. SMITH
Appeal from the Circuit C ourt for Shelby County
No. CT-001046-16 M iry L. Wagner, Judge
No. W2019-0039< i-COA-R3-CV

FILED
DEC 20 2019

aerk eyffi i

Rec'd

This appeal arises from a lawsuit over a car accident. Heather P. Hogrobrooks Harris
(“Plaintiff’), proceeding pro se, sued Jimmie L. Smith (“Defendant”) in the Circuit Court
for Shelby County (“the Trial Court”) for diminution in the value of her vehicle, medical
expenses, pain and suffering, loss of use of her vehicle, and negligent infliction of
emotional distress. On several occasions over the course of the case, Plaintiff failed to
show up to court. When Plaintiff failed to appear for trial, the Trial Court granted a
continuance with a warning that, should Plaintiff fail to appear again, her case would be
dismissed. Plaintiff subsequently failed to appear, and the Trial Court dismissed her case
with prejudice for lack of prosecution, as it warned it would. Plaintiff appeals to this
Court, arguing among other things, that the Trial Court Judge was biased against her and
that the Trial Court erred in dismissing her cose. First, we find no evidence whatsoever
that the Trial Court Judge was biased against Plaintiff. Second, Plaintiffs stated reasons
for failing to show up for trial, that it was cold and rainy that day and her car was old and
unreliable, respectfully will not suffice. W; find no abuse of discretion in the Trial
Court’s dismissal of Plaintiffs case for lack of prosecution. We affirm the judgment of
the Trial Court.
Tenn. R. App. P. 3 Appeal as of Right; Jii figment of the Circuit Court Affirmed;
Case Remanded
D. Michael Swiney, C.J., delivered the opinion of the court, in which J. Steven
Stafford, P.J., W.S., and Kenny W. Armstrong, J., joined.
Heather P. Hogrobrooks Harris, Memphis, Te inessee, Pro Se appellant.
Melanie M. Stewart, Memphis, Tennessee, for the appellee, Jimmie L. Smith.

OPINION
Background
In March 2016, Plaintiff sued Defendait in the Trial Court for diminution in the
value of her vehicle, medical expenses, pain and suffering, loss of use of her vehicle, and
negligent infliction of emotional distress, all arising from a January 17,2016 car accident.
Defendant filed an answer in opposition. A jury trial was set for April 2017. Defendant
filed a motion to continue based on Plaintiff having filed for Chapter 7 bankruptcy in
January. The Trial Court continued the trial date to November 2017. Plaintiff was
discharged in bankruptcy that year.
In March 2018, Plaintiff filed a petition seeking the Trial Court Judge’s recusal.
In her petition, Plaintiff alleged that the Trial C ourt Judge had “cut the Plaintiff off after a
couple of words” and was “not only dismissive but said dismissiveness was tinged with a
cultural attitude that is familiar to the plaintiff ” Plaintiff also put forward as a basis for
recusal the Trial Court Judge’s membership ii Daughters of die American Revolution,
which Plaintiff describes as a racist organization. In August 2018, the Trial Court entered
an order denying Plaintiffs petition for recuiial. The Trial Court found that Plaintiff
failed to comply with Tennessee Supreme Court Rule 10B governing motions for recusal.
The Trial Court found further, in pertinent part, as follows:
. This matter was originally scheduled for a status conference by the
Court on November 20, 2017. The Court set this matter in November 2017
along with numerous other matters to assign a trial date. The November
2017 status conference was continued cue to Plaintiffs bankruptcy status.
Plaintiff and Counsel for the Defendant appeared on February 19, 2018. At
the February 19, 2018 status conference counsel for the Defendant advised
the Court that there was a bankruptcy hearing scheduled for March 27,
2018. Counsel lor Defendant did not address the merits of the case.
Because of the bankruptcy status, theie was nothing else that could be
accomplished at the status conference. Further, on February 19, 2018, the
Court was in the middle of a three week medical malpractice trial. The
Court had jurors waiting and it was incumbent upon the Court to return to
the matter as quickly as possible. Since it was neither appropriate nor
necessary to discuss the merits of the :ase, the Court felt appropriate to
conclude the status conference. The Court was not dismissive of Plaintiff
but only stopped Plaintiff from going into the merits of the case on
February 19, 2018 as it was not appropriate at that time. The Court
continued the status conference to May 21, 2018 to await the outcome of
the bankruptcy hearing.
-2-

**%

[T]he Court affirmatively finds that the Court has no actual bias, prejudice,
or favor for or against any party or attorney in this matter. The Court will
conduct a full hearing on the merits :n accordance with the law, at the
appropriate time. At that time, eacli party will have a full and fair
opportunity to be heard and will receive a full, fair and impartial trial. That
hearing on the merits cannot be conducted at a status conference or until
Plaintiffs bankruptcy status is resolved in a manner that allows this Court
to move forward.
***

This Court is a member of the organization Daughters’ of the
American Revolution. However, there is no basis in law or fact for the
general insinuations in Plaintiff’s Petition for Recusal. A person of
ordinary prudence in the judge’s position, knowing all of the facts known to
the judge, would not find a reasonable basis for questioning the judge’s
impartiality.
In December 2018, Defendant filed a motion for partial summary judgment as to
Plaintiffs claims for diminution in die value of her vehicle, negligent infliction of
emotional distress, and medical expenses. In his memorandum of law, Defendant
asserted that Plaintiff only leased the car that was struck, and that Defendant’s insurance
company had paid the cost of repair. As to Plaintiffs claim of negligent infliction of
emotional distress, Defendant pointed to Plaintiffs interrogatory response wherein she
stated that she would not be calling any experts for trial, which Defendant argued
doomed this particular claim. Regarding medical expenses, Defendant argued that
summary judgment was appropriate because Plaintiff failed to itemize her medical bills,
and that, at any rate, her bills were discharged in bankruptcy. On January 11, 2019,
Defendant filed three motions in limine seeking to exclude evidence of settlement
negotiations, the traffic ticket, and insurance, respectively. The Trial Court granted all
three motions. In her January 15, 2019 response to Defendant’s motions in limine,
Plaintiff stated that she would not be able to attend the January 18 hearing on those or
other motions because “she will be without proper transportation and is returning a rental
car today.”
Also in January 2019, Plaintiff filed ail amended complaint, as well as a motion
for continuance in which she asked for six months to conduct discovery. Defendant, for
his part, filed a motion to strike the amended complaint on grounds that Plaintiff had
never received either written consent from Defendant or leave of court to amend as
-3-

required by Rule 15.01 of the Tennessee Rules of Civil Procedure. The Trial Court
granted Defendant’s motion to strike.
Trial was set for January 22, 2019. Plaintiff did not show up to court that day.
The Trial Court, while not granting Plaintiff ha* requested six months, did grant her some
extra time. In its order on Plaintiffs motion for continuance, the Trial Court warned
Plaintiff that failure to appear next time would result in the dismissal of her case with
prejudice. The Trial Court stated:
This matter was set for trial on January 22, 2019. Plaintiff did not
appear. The morning of trial, the Court learned that Plaintiff filed a Motion
for Continuance on January 7, 2019. The Plaintiff failed to follow the local
rules by not setting this matter for hearng and by not providing the Court a
courtesy copy of the Motion, Nevertheless, the Court will grant the Motion
for Continuance and briefly continue this matter to allow Plaintiff to
prosecute this matter. The matter will De set for trial on February 11, 2019
at 10:00 am. Absent good cause shown, it will not be continued again. If
Plaintiff fails to appear at the trial of this matter on February 11, 2019, this
matter shall be dismissed for lack of prosecution with prejudice.
IT IS SO ORDERED ADJUDGED AND DECREED Plaintiffs
Motion for Continuance is granted. The matter will be set for trial on
February 11, 2019 at 10:00 am. Absent good cause shown, it will not be
continued, again. If Plaintiff fails to appear at the trial of this matter on
February 11, 2019, this matter shall be dismissed for lack of prosecution
with prejudice and costs will be assessed against the Plaintiff.
The Trial Court also granted Defendant’s motion for partial summary judgment.
In its order granting partial summary judgment, the Trial Court noted that Plaintiff had
failed to appear at the January 18 hearing.1 As Plaintiff never responded to Defendant’s
statement of undisputed material facts, the Trill Court adopted Defendant’s facts:
a. This action arises out of an automobile accident which occurred on
January 17, 2016,
b. The vehicle the Plaintiff was driving was repaired at the cost of
$ 1,868.45 and paid for by the Defendarit.
i

Plaintiff asserts that she had only four days notice <(>f this hearing. As Plaintiff never raised this issue
below, it is waived on appeal. Furthermore, Plaintiff stated in her Response to Defendant’s Motions in
Limine and Other Pending Motions, filed on January 15, 2019, that she would not appear at the heanng
on the 18th because of transportation issues.
-4-

c. At the time of the accident, Plaintiff was not the owner of the 2014
BMW that she was driving at the time of the accident.
d. Plaintiff did not name any expert witnesses in her answers to written
discovery.
e. Plaintiff did not itemize her medical bills in the Complaint or in her
answers to discovery.
f. Plaintiff filed Chapter 7 Bankruptcy and her bill from Methodist South
Hospital in the amount of $2,000 was discharged in Bankruptcy.
The Trial Court proceeded to dismiss Plaintiffs claims for diminution in the value of her
vehicle, negligent infliction of emotional distress, and medical expenses. On January 30,
2019, Plaintiff filed her Motion for Reconsideration or for Final Appealable Order, in
which she largely rehashed her earlier allegations that the Trial Court Judge was biased
against her.
On February 11, 2019, Plaintiff failed to show up yet again. The Trial Court
entered an order denying Plaintiffs Motion f x Reconsideration or for Final Appealable
Order, a motion that the Trial Court correctly noted is not provided for by the Tennessee
Rules of Civil Procedure. In its order, the Tritl Court stated, in part:
This cause came upon the Co urt before the Honorable Mary L.
Wagner, Judge of Division VII of the Shelby County Circuit Court, upon
die Plaintiffs Motion for Reconsideration or for Final Appealable Order.
This matter was set for trial on February 11, 201[9]. Plaintiffs motion was
filed on January 30, [2]019. Plaintiff failed to set this matter for hearing or
provide the Court with a courtesy copy of the motion in accordance with
local rule. Plaintiff failed to appear at the trial of this matter, on which day
the Court planned to take up this Mot ion for argument. Nevertheless, the
Court did review the motion and fully c onsider it.
**>■

With regard to the allegations made by the Plaintiff, the Court has
always considered Plaintiffs pleadings. In fact on more than one occasion,
the Court has considered the merits of Plaintiffs motions and written
responses despite Plaintiffs noncompliance with the rules of Court. In
ruling on the most recent motions, the Court considered all of Plaintiffs
written responses and ruled on the merits despite Plaintiffs failure to
appear in Court. With regard to Pla ntiff s motion for continuance, this
Court granted the motion despite it no: being properly set, despite Plaintiff
not appearing for the court ordered trial date and over Defendant’s
-5-

objection. The Court continued this rt latter only a short period due to the
age of this case and to allow Plaintiff to seek whatever further discovery
she thought she needed. Without Plaintiff advising this Court, which she
still has not done, as to what further discovery is needed, the Court had no
choice but to set it on the next avai able trial date which would allow
Plaintiff time to propound any remaining discovery that she would need.
This ruling did not foreclose Plaintiff from seeking a further continuance if
she took steps to prosecute this case and sought such continuance with good
cause. To date, Plaintiff has not taken any further steps with regard to this
case or sought further continuance. She has not issued discovery, issued
subpoenas or moved this Court for further relief with regard to what she
believes she needs to prosecute this c ase. With regard to the Plaintiffs
other allegations as to this Court’s ru lings, the Court’s orders speak for
themselves. In sum, however, the Court struck Plaintiff’s Amended
Complaint as it was filed without compliance with Tenn. R. Civ. P. Rule
15. To date, Plaintiff has not filec a Motion seeking to amend her
Complaint. Further, the Court granted summary judgement and entered an
Order excluding medical bills because Plaintiff failed to produce them in
discovery or otherwise show a dispute as to material fact in response to the
Defendant’s summary judgment argument after Defendant met its burden to
obtain summary judgment.
Also on February 11, acting on a motion by Defendant, the Trial Court entered an
order dismissing Plaintiffs case with prejudice for lack of prosecution. The Trial Court
stated, as relevant:
This matter was set for trial on Feb ruary 11, 201 [9] by Order entered
January 22, 2019. When called, Plaintiff failed to appear. Plaintiff has no
motions pending before this Court. Defendant moved for the case to be
dismissed. Therefore, this matter shall be dismissed for lack of prosecution
with prejudice pursuant to Tenn. R. Ci\ . P. Rule 41.02.
Plaintiff timely appealed to this Court.
Discussion
Plaintiff raises eleven issues on appeal, which we restate as follows: 1) whether
the Trial Court Judge erred by not recusing lerself; 2) whether the Trial Court erred in
dismissing the case for lack of prosecution; il) whether the Trial Court erred in striking
Plaintiffs amended complaint; 4) Plaintiff rewords the previous issue but it is, in
substance, the same; 5) whether the Trial Coi rt erred by denying Plaintiff a continuance;
-6-

6) whether the Trial Court erred in granting summary judgment as to Plaintiffs claim of
negligent infliction of emotional distress; 7) whether the Trial Court erred in granting
summary judgment as to Plaintiffs claim far medical expenses; 8) whether the Trial
Court erred in conducting a hearing with Plaintiff not in attendance; 9) whether the Trial
Court erred in granting Defendant’s motion for a continuance; 10) whether the Trial
Court erred in granting Defendant’s motion in limine with respect to evidence of
settlement negotiations; and, 11) whether the Trial Court erred in adopting Defendant’s
statement of undisputed material facts. Of these eleven, we determine that two issues—
one pertaining to recusal, and the other perta ning to dismissal for lack of prosecution—
are dispositive of the appeal.
We first address whether the Trial Court erred by denying Plaintiffs petition for
recusal. “‘The right to a fair trial befors an impartial tribunal is a fundamental
constitutional right.*” Bean v. Bailey, 280 S.W.3d 798, 803 (Tenn. 2009) (quoting State
v. Austin, 87 S.W.3d 447, 470 (Tenn. 2002)). A judge must recuse himself or herself
upon request whenever “‘the judge’s impartiality might be reasonably questioned because
die appearance of bias is as injurious to tint integrity of the judicial system as actual
bias.’” Smith v. State, 357 S.W.3d 322, 341 [Tenn. 2011) (quoting Bean, 280 S.W.3d at
805). “Bias” and “prejudice” are terms that refer generally “to a state of mind or attitude
that works to predispose a judge for or against a party;” however, “[n]ot every bias,
partiality, or prejudice merits recusal"" Alley v. State, 882 S.W.2d 810, 821 (Tenn. Crim.
App. 1994). To render disqualification of a tial judge necessary, “prejudice must be of a
personal character, directed at die litigant, ‘must stem from an extrajudicial source and
result in an opinion on the merits on some bans other than what the judge learned from..
. participation in the case.’” Id. (quoting S ate ex rel. Wesolich v. Goeke, 794 S.W.2d
692,697 (Mo. App. 1990)).
Plaintiffs reasons as to why the Trial Court Judge should have recused herself can
be broken down into three separate categories: (1) at a status conference, the Trial Court
Judge cut Plaintiff off when she tried to speak; (2) the Trial Court Judge belongs to the
Daughters of the American Revolution organ zation; and (3) the Trial Court ruled against
Plaintiff and for Defendant.
With respect to Plaintiffs first point, the Trial Court Judge explained in her
August 16, 2018 order that “[t]he Court was not dismissive of Plaintiff but only stopped
Plaintiff from going into the merits of the case on February 19, 2018 as it was not
appropriate at that, time.” The record contai ns no transcript of the status conference in
question. We do not know what was said. This record contains no evidence that the
Trial Court Judge said or did anything even mildly discourteous to Plaintiff, let alone
something so egregious as to require recusal If Plaintiff tried to speak on the merits of
-7

's

her case at the status conference, the Trial Chirt acted properly in letting her know that
was not the proper time to get into those matters.
Regarding the Trial Court Judge’s n embership in Daughters of the American
Revolution, Plaintiff fails to cite any evidence in the record supporting her assertions
about that organization’s alleged discriminatory views. The record does not establish
what the alleged discriminatory views are, or were, or any other details critical to
Plaintiffs argument. This Court is confined to the record on appeal. There is nothing in
this record, nor are there any facts so uncontroversially known as to be amenable to
judicial notice, to support Plaintiffs position that the Trial Court Judge’s mere
membership in Daughters of the American Revolution means that the Judge was biased
against her.
Finally, Plaintiff cites as evidence of impermissible bias instances where the Trial
Court Judge ruied against her and in favor of Defendant. However, “[a] trial judge’s
adverse rulings are not usually sufficient to establish bias.” State v. Cannon, 254 S.W.3d
287, 308 (Tenn. 2008). “Rulings of a tria judge, even if erroneous, numerous and
continuous,.-do not, without more, justify dis qualification.” Alley, 882 S.W.2d at 821.
We find not the slightest hint in the record that the Trial Court Judge was biased against
Plaintiff. Qn the contrary, thp record reflecls that the Trial Court Judge went to great
lengths to be fair to Plaintiff, even when Plaintiff failed to comply with applicable rules
or even show up to court. There are no facts shown in this record that demonstrate either
actual bias on the part of the Trial Court Judge or that would lead a well-informed,
disinterested observer to question the impartiality of the Judge. We find no error in the
Trial Court Judge’s denial of Plaintiff s petition for recusal.
The next and final issue we address is whether the Trial Court erred in dismissing
Plaintiffs case for lack of prosecution. In Hodges v. Attorney General, 43 S.W.3d 918
(Tenn. Ct. App. 2000), we observed:
Parties who choose to represen : themselves are entitled to fair and
equal treatment by the courts. Paehler v. Union Planters Nat l Bank, Inc.,
971 S.W.2d 393, 396 (Tenn. Ct. App. 1997). However, the courts may not
prejudice the substantive rights of the other parties in order to be “fair” to
parties representing themselves.
Parties who choose to represent
themselves are not excused from complying with the same applicable
substantive and procedural law that represented parties must comply with.
Edmundsonv. Pratt, 945 S.W.2d 754, ''55 (Tenn. Ct. App. 1996); Kaylor v.
Bradley, 912 S.W.2d 728, 733 n. 4 (T;nn. Ct. App. 1995); Irvin v. City of
Clarksville, 767 S.W.2d 649, 652 (Tenn. Ct. App. 1988). Thus, Mr.
-8-

Hodges, like any other litigant represented or not, must comply with the
requirements of [the Rules of Civil Procedure]....
Trial courts possess inherent, common-law authority to control their
dockets and the proceedings in their courts. Their authority is quite broad
and includes the express authority to dismiss cases for failure to prosecute
or to comply with the Tennessee Rules of Civil Procedure or the orders of
the court. Tenn. R. Civ. P. 37.02(C); Term. R. Civ. P. 41.02(1); Kotil v.
Hydra-Sports, Inc:, No. 01A01-9305-CV-00200, 1994 WL 535542, at *3
(Tenn. Ct. App. Oct. 5, 1994) (No Tenn. R. App. P. 11 application filed).
Because decisions to dismiss for failure to prosecute are discretionary,
White v. College Motors, 212 Tenn. 384, 386, 370 S.W.2d 476, 477 (1963),
reviewing courts will second-guess a trial court only when it has acted
unreasonably, arbitrarily, or unconscionably. Friedman v. Belisomo, No.
02AO 1-9304-CH-00094, 1993 WL 493504, at *3 (Tenn. Ct. App. Dec. 1,
1993) (No Tenn. R. App. 11 application filed). Trial courts may, on their
own motion, dismiss cases for lack of prosecution, but this authority should
be-exercised sparingly and with great care. Harris v. Baptist Mem 7 Hosp.,
574'S.W;2d 730,731 (Tenn. 1978).
Hodges, 43 S.W.3d at 920-21.
In its January 22, 2019 order on Plaintiffs motion for continuance, the Trial Court
clearly warned Plaintiff that her case would be dismissed with prejudice if she failed to
show up for the February 11, 2019 trial date . Plaintiff contends that this warning was
insufficient. In her brief, Plaintiff argues: “[T]o dismiss and forever foreclose the
appellants] Article 1, Section 17 rights something more tha[n] a[n] inconspicuous line
in an order otherwise captioned was required.” However, the line was not inconspicuous;
it need only have been read to be understood, The meaning was plain: show up for trial
on February 11 or the case is dismissed, absent good cause.
As for why Plaintiff failed to show up to court on February 11, 2019, her reasons
are less than compelling. At the November 12, 2019 oral argument in this appeal,
Plaintiff explained to the panel that she did net go to court on February 11 because it was
cold and rainy that day, and that she had “put back in service a 1985 vehicle.”
Respectfully, these are insufficient reasons foi not showing up for trial.
Dismissal with prejudice for lack of prosecution is a harsh sanction. However, it
can be warranted in certain circumstances. Trial courts have a responsibility to manage
their dockets; lawsuits cannot drag on indefinitely at a plaintiffs convenience, or only be
acted upon when the weather is good. It was necessary for Plaintiff to show up to court
-9-

to try this lawsuit that she filed. She did not, ind her reasons are insufficient. This being
so, we find no abuse of discretion in the Trial Court’s dismissal of Plaintiff’s case with
prejudice for lack of prosecution. All other issues raised by Plaintiff are pretermitted.
We affirm the judgment of the Trial Court.
Conclusion
The judgment of the Trial Court is ai firmed, and this cause is remanded to the
Trial Court for collection of the costs below. The costs on appeal are assessed against the
Appellant, Heather P. Hogrobrooks Harris, an d her surety, if any.

J2
D. MICHAEL SWINEY, CHIEF JUDGE

-10

j

«

»

:

APPENDIX F

!
■:

i

!

*

iW:V

^ *•* -r
* j
«r

>'

V-

;X
V. !
&
::M. *

v

*

if
IN THE CIRCUIT COURT OF TENNESSEE FOR THE
^ THIRTIETH JUDICIAL DISTRICT AT MEMPHIS, SHELBY COUNTY

HEATHER P. HOGROBROOKS HARRIS
Plaintiff,
Cause No. CT-001046-16
Div. VII

v.

r

JIMMIE L. SMITH

ft ’’

AUG I &201S

Defendant.

BY
ORDER ON MOTION FOR RECUSAL

This cause came upon the Court before the Honorable Mary L. Wagner, Judge of
Division VII of the Shelby County Circuit Court, ipon the Plaintiffs Motion for Recusal.
Upon the Court’s consideration of the v written Motion, the motion is denied for the
following reasons:
1.

This matter was originally scheduled for a status conference by the Court on

November 20, 2017. The Court set this matter Li November 2017 along with numerous other
matters to assign a trial date. The November S:017 status conference was continued due to
Plaintiffs bankruptcy status. Plaintiff and Counsel for the Defendant appeared on February 19,
2018. At the February 19, 2018 status conference, counsel for the Defendant advised the Court
that there was a bankruptcy hearing scheduled for March 27, 2018. Counsel for Defendant did
not address the merits of the case. Because of the bankruptcy status, there was nothing else that
could be accomplished at the status conference. Further, on February 19,2018, the Court was in
the middle of a three week medical malpractice tial. The Court had jurors waiting and it was
1
•t

o

D.C.

.7 ' r*

incumbent upon the Court to return to the matter as quickly as possible. Since it was neither
appropriate nor necessary to discuss the merits of the case, the Court felt appropriate to conclude
the status conference. The Court was not dismissive of Plaintiff but only stopped Plaintiff from
going into the merits of the case on February 19, 2018 as it was not appropriate at that time. The
Court continued the status conference to May 21 2018 to await the outcome of the bankruptcy
hearing.
2.

On May 21, 2018, this matter was set for Status Conference. Plaintiff did not

appear. Counsel for the Defendant appeared and informed the Court of the filing of the Petition
to Recuse Trial Judge. Tennessee Supreme Court Rule 10B § 1.02 provides that “[w]hile the
motion is pending, the judge whose disqualificati on is sought shall make no further orders and
take no further action on the case, except for good cause stated in the order in which such action
is taken." Therefore, upon notification of the filing, this Court continued the status conference to
June 25, 2018. The Court requested that Defense counsel prepare an order setting the status
conference on June 25, 2018 so that Plaintifff would be aware. Due to the late entry of this
Order and to provide Plaintiff with adequate notice, the Court sua sponte continued the status
conference until August 20, 2018. An Order reflecting this was entered and sent to the Plaintiff
on June 20,2018.
3.

Tennessee Supreme Court Rule 1011 § 1.03 further provides “[u]pon the filing of a

motion pursuant to section 1.01 the judge shall act promptly by written order and either grant or
deny the motion.” To date, Plaintiff has not set h<sr Petition to Recuse Trial Judge to be heard in
accordance with the local rules of court or otherwise notified the Court of her filing.
Nevertheless, the Court endeavors to act promptly by entering this written order.

2

*

4.

The Motion fails to comply with Tennessee Supreme Court Rule 10B governing

motions for recusal. For that reason alone, the motion must be denied.
5.

Further, “[t]he question of recusal on the basis of bias involves two inquiries. The

first is whether the judge has actual bias; the second is whether his or her impartiality might
reasonably be questioned, i.e., whether there may be an appearance of bias even though no actual
bias exists.” In re Bridgestone Corp., No. M2013 -00637-COA-10B-CV, 2013 WL 1804084, at
*2 (Tenn. Ct. App. 2013), perm. app. denied (Tenu. June 11,2013).
6.

With regard to the first inquiry, the Court affirmatively finds that the Court has no

actual bias, prejudice, or favor for or against any p arty or attorney in this matter.

The Court

will conduct a full hearing on the merits in acconiance with the law, at the appropriate time. At
that time, each party will have a full and fair opportunity to be heard and will receive a full, fair
and impartial trial. That hearing on the merits cannot be conducted at a status conference or until
Plaintiffs bankruptcy status is resolved in a mann it that allows this Court to move forward.
7.

With regard to the second inquiry, “[a] trial judge should grant a recusal motion

when ‘a person of ordinary prudence in the judge's position, knowing all of the facts known to
the judge, would find a reasonable basis for questioning the judge's impartiality.’” State v.
Hester, 324 g.W.3d 1, 73 ftoft.
2009)).
8.

This Court is a member of the organization Daughters’ of the American

Revolution. However, there is no basis in law or fact for die general insinuations in Plaintiff's
Petition for Recusal. A person of ordinary prude ice in the judge's position, knowing all of the
facts known to the judge, would not find a reasonable basis for questioning the judge's
impartiality.

3

£

♦

IT IS SO ORDERED ADJUDGED AND DECREED, that the Motion for recusal is
denied.

DATE
CERTIFICATE OF SERVICE
I hereby certify that a true and accurate copy of this i Order has been forward

^

m

Heather P. Hogrobrooks Harris
579 Byron Drive
Memphis TN 38109

}

/vi Y^i'iC.61
lOwHE, CLERK
\

D.C.

BY.

Melanie M. Stewart
44 N. Second Street Suite 1200
Memphis TN 38103
jy

CLERK
Date:

'rS,*S**

4

APPENDIX G

%
>328 .

••■••(•wwi vi uni

Debtor 2
(8pouM, tf Wing)

FbtHtn*

MddhNww

UttNim*

iFMNam*

MddtoNaiM

LmINvim

EIN
Social Security number or ITIN

Ein
United 8tetw Benkniptoy Court Weetem District of Tsnnsssst
Case number 17-20334

Order of ptochffrg»

12/18

ITISORDERED: A discharge under 11 U.S.C. § 727is granted to:
Heather Patrice Hogrobrooks Harris
**. ^h8r

9/25/17

By Em court:

Explanation of Bankruptcy Dlacharga In a Chapter 7 Case
This Order does not close or dismiss the case,
and it does not determine how much money, if
any, the trustee will pay creditors.

This order does not prevent debtors from paying
any debt voluntarily or from paying reaffirmed

1^8*0^83(5,a9™,,men,•

Creditors cannot collect discharged debts
This order means that no one may make any
attempt to collect a discharged debt from the
debtors personally. For example, creditors
cannot sue, garnish wages, assert a deficiency.
or otherwise try to collect from the debtors
personalty on discharged debts. Creditors cannot
contact the debtors by mall, phone, or otherwise
In any attempt to collect the debt personally.
Creditors who violate this order can be required
to pay debtors damages and attorney's fees.

Most debts are discharged
Most debts are coveted by the discharge, but not
all. Generally, a discharge temoves the debtors'
personal liabHity for debts owed before the
debtors' bankruptcy case was filed.
AJso, If this case began under a different chapter
3f toe Bankruptcy Code and was later converted
0 chapter 7, debts owed before toe conversion
are discharged.

However, a creditor with a lien may enforce a
claim against the debtors’ property subject to that
Hen unless the lien was avoided or eliminated.
For example, a creditor may have the right to
foreclose s home mortgage or repossess an
automobile.

n a case involving community property: Special
mles protect certoun community property owned
l>y toe debtor's spouse, even if that spouse did
not file a bankruptcy case.

For more Information,

Official Form 318

Orderotpischarge

»

36909036364010

page 1

paste 2 >

APPENDIX H

?

IN THE CIRCUrr COURT OF SHELBY COUNTY TENNESSEE
FOR THE THtRTEEIVTH JUDICIAL DISTRICT
AT MEMPHIS

D L SB
MAR 15 2018

HEATHER P. HOGROBROOKS HARRIS,

CIRCUIT COURT CLERK
D.C.
BY.

PLAINTIFF,
VS

DOCKET NO.: CT-001046-16
DIV.V1I

JIMMIE L SMITH,
DEFENDANT.

PETtnON TO Rl CUSE TRIAL JUDGE

TO THE HONORABLE JUDGE Mary L. Wagner
COMES NOW, the plaintiff. Heather P. Hogrobrook; respectfully requesting, that In the spirit of insuring
that this litigant receives the constitutional protections she's ehtitled, recuse herself form presiding In
this matter, and support states:
1. Plaintiff Is a black female bom In 1958.
2. Plaintiff along with defense counsel had an appe: trance on some housekeeping matters and during
that hearing defense counsel was disingenuous in her representation on an issue.
3. Plaintiff, after defense counsel finish speaking, attempted to respond to the what had been stated by
defense counsel.
4. Judge Wagner cut the Plaintiff off after a couple of words. She was, In plaintiff opinion and
experiences In the affairs of life, not only dismissive but said dl$mlssiveness was tinged with a cultural
attitude that Is familiar to the plaintiff.

Harris v. Smith, Motion to Recuse

1

j.

5. Because of that feeling, Plaintiff soi«ht to find Information about the judge. On Tennessee's
government website Plaintiff found a notice about her appointment to the circuit court. In that notice it
touted the Judges membership In the 'Daughters if the American Revolution'. Exhibit A.
6. Although The Daughters of the American Revolution are attempting to re-brand the organization It's
best known to people like me as a racist organizat

on that excluded individuals like me until it was

successfully sued In the late 90's and gaining work ■wide infamy what a sitting President's wife
renounced her membership because of Its practiced racism.
7. Plaintiff, certainly does not know why a women 1 >f the judges age, in a city with the demographics of
Memphis, Tennessee would publicize such a membership other than to engage in dog-whistle politics
thus letting those in political power (to appoint jmlges) know her true heart.
8. Plaintiff is concerned only that she received a fail trial befoSe a fair, unbiased, and impartial jurist.
The relevant law on the Issue Is as follows:
Tennessee Code of Judicial Conduct Rule 2.: 11 provide* that *[a] judge shall disqualify
himself or herself In any proceeding in whlc 1 the judge's impartiality might reasonably
be questioned!.]* Tenn. R. Sup; a 10, § 2.li. It Is weltsettled that *„[t]he right to a fair
trial before an impartial tribunal Is a fundamental constitutional right.** Bean v. Bailey,
280 S.W.3d 798,803 (Tenn. 2009) (quoting State v. Austin, 87 S.W.3d 447,470 (Tenn.
2002)). Article VI, Section 11 of the Tennessc e Constitution, Tennessee Code Annotated
Section 17-2-101
The purpose of the prohibition Is to -guard a jalnit the prejudgment of the rights of
litigants and to avoid situations in which the itigants might have cause to conclude that
the court Q reached a prejudged conclusion I ecause of interest, partiality, or favor.*
State v. Austin, 87 S.W.3d 447,470 (Tenn. 20 >2) (citation omitted). Additionally, we
have emphasized that *the preservation of the public** confidence in judicial neutrality
requires not only that the judge be impartial h fact, but also that the judge be perceived
to be impartial.* Kinard v. Klnard, 986 S.W.2d 220,228:(Tenn. a. App. 1998) (citations
omitted). Accordingly, even in cases wherein ji judge slhcerely believes that she can
preside over a matter fairly and Impartially, the judge nevertheless should recuse herself
Harris v. Smith, Motion to Recuse

2

In cases where a reasonable person "Jn the judge's position, knowing all the facts
known to the judge, would find a reasonablei basis for questioning the judge's
impartiality.'* Davis v. Liberty Mut. Ins. CO., 38 S.W.3d 560,564-65 (Tenn. 2001)
(quoting Alley v. State, 882 S.W.2d 810,820 (Tenn. Crlm. App. 1994)). It is an objective
test designed to avoid actual bias and the ap pearance of bias, *since the appearance of
bias Is as injurious to the integrity of the judicial system as actual bias* Davis, 38 S.W.3d
at 565 (citation omitted).

WHEREFORE, Plaintiff understands the pride we have in our relatives that have served this
Country's military, she herself proudly carries and lues her united States Uniformed Services
Identification and Privilege Card, however her Interei t herein Is that she receives the benefits of the
Constitution created after the American Revolution. Vet, for ell the reasons, circumstances and law set
forth above, she prays the Court with value Plaintiff's rights arid recuse from presiding In this matter.
R<

liysul

Heather Hogrgbrooks Harris
579 Btyron Drive
Memphis TN 38109
heathenaatricegbellsouth.net

camncATTBSttyitt
This certifies that a copy of the foregoing has been served by email and U. S. Mall, postage
prepaid, upon the following:
MELANIE M. STEWART, 810034
Attorney for Defendant
44 North Second Street, Suite 1200
Memphis, TN 38103
(901)526-5975
File No.: MS-50256
this the 15th Day of March 2018

lEATMEI MDGROBftOOKS HARRIS
Harris v. Smith, Motion to Recuse

3

\ ^r

* ’ ' Haatam Appoints Wagner Circuit Court Judge fojr 30thJndicklDi8trict-TN.Gov

Page 1 of2

i ,

*

Haslam Appoints Wagner Circuit Court
Judge for 30th Judidai District

Monday, October 24,2016 112:40pm

'

NA8HVILLE-T
Gov. BUHaeiam today
Manf L Whgnar of MampNa aa otou* oourt judge fcr
the 30th JudtoM DMrict, which aarvee SMby County
nfc.Thevi
emoted by the ratbemont of Judge Donna
M. FWda.
®nee2011, Wagner, 32, has been * the Memphle law irm Rloe, Amundaen A Caparton, where aha haa worked In
oinOTinwrtiM. >«*»»—.
fimltr lanr and nnn pnffllliieliooo
of
her praodoa there have inducted paraontflnlury and probate.
at the Atm, aha taught at the CeolC. Humphreye School
rat the Untaratty of Mamphto from 2012-4014 aa an
ftot prafcfleor, taachtag aaoond^raar law atudanta adaanoad
In legal idling and oral advocacy and Ural year atudanta
writing, ibaiarch and analyala.
H her eidanalwe background m Shefcy County, Mary
ner la wafl prepared fcr a aaat on the drout oourt in the
JuMal DMrict,'HaalamaaM.'VMa are fcrtunata to have
•one wNh Iter eNporianoe, and we ate piaoeod to announce

l>

.^
imi

_____ ..
.

I Mm tefthank the gouamor fcr hie oonRdanoe In me,'
r laid. 1am deeply humbled and honored by tNe
rtty.l took forward to aarvlng the dlliene In the 30th
OlaMot*

____
■

BafcmjdntogRlo* Amundaen a Caparton, Wagner wee at the
** *m'
^ahewpaia Itawderkftom;200MD10fcrJu*e»«en
^^•■*^l>,*,0*,rtt*,r'*4geRolfcitLChldara In the Shafcy County Clroit Court

^nnaai Mfcgnar wee a raoaamh aiaeiMil In 2007 tar I hot. And** MoQurg during law aohooL

Sh. h* bMK . IM. of •» Pm CoiKfeto. MM. (Vnw Cgmmlrtcn.ho.Jun.201S.

ifflpay/www.tn.gov/goveraor/Wa/46408

1/14/MU+

r

Page 2 of2

-* Haalam Appoints Wagner Circuit Court Judge for 30th Judicial District - TN.Gov
'7
J |r.
f

.
haaalao bean acdve in har gynmunly, Inotod^ma rtoertolto In toe QocmanlownKMranii Club atooe 2011
and a member of the Hermitage Chapter of the Daughtera«r1 he American Revolution alnoe 2013. \htegner hea been
' a member of the Chrtet United Maihodtet Church ainoo2016ind aim praMtouaiy a member of Germantown Bapttet
Church.

i

VWvwr te married to Torn Owan, and they have a aon, Banja nln.

:i
I
i

i
i

i

i

:

I

!
i

f

\

\
!

https://www.tB.gov/govemorAiewa/46408

%

1/14/2017

l

